No. 21-5592

 

In THE
Supreme Court of the United States

JOHN RAMIREZ,

Petitioner,
Vv.

BRYAN COLLIER, Executive Director,
Texas Department of Criminal Justice;
Bossy LUMPKIN, Director, Texas Department
of Criminal Justice, Correctional Institutions
Division; DENNIS CROWLEY, Warden,
TDCJ, Huntsville, TX,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF OF THE FREEDOM FROM
RELIGION FOUNDATION, AMERICAN
ATHEISTS, AND AMERICAN HUMANIST
ASSOCIATION AS AMICI CURIAE
IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,027 words, excluding the parts of the document that are exempted by Supreme Court
Rule 83.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 27, 2021.

 

Wilson-Epes Printing Co., Inc.
